Record Press Inc., 229 West 36th Street, New York, N.Y. 10018·
Tel No.: (212) 619-4949 • Fax No. (212) 608-3141
85174
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

SS:

AFFIDAVIT OF SERVICE

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 10th day of November 2020 deponent served 3 copies of the within
upon the attorneys at the addresses below, and by the following method:
BY FEDEX NEXT BUSINESS DAY
Paul W. Hughes
McDermott Will & Emery
500 North Capitol Street, NW
Washington, DC 20001-1531
202-756-8981
phughes@mwe.com
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov

I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on November 10, 2020, pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have been served.

Edward Gutowski
Sworn to me this
November 10, 2020
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public

Tony H Pham v. Maria Angelica
Guzman Chavez

Case Name:

Docket/Case No. 19-897

